TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Trends in Employee Plans Function
                            Enforcement Activities for
                             Fiscal Years 2000 – 2005



                                         August 24, 2006

                              Reference Number: 2006-10-116




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 24, 2006


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in Employee Plans Function Enforcement
                             Activities for Fiscal Years 2000 – 2005 (Audit # 200610007)

 This report presents the results of our review of relevant statistical data for trends in the
 Employee Plans function’s enforcement activities for Fiscal Years 2000 – 2005.

 Synopsis
 Changes in the way the Employee Plans function applied resources and selected returns for
 examination resulted in improvements to key compliance indicators. The Employee Plans
 function adopted a market-segment approach for identifying and selecting returns for
 examination and increased resources devoted to the Examination program. These initiatives
 were the primary reasons for improvements in key compliance indicators.
 Overall, compliance activities increased and results improved during Fiscal Years 2004 and
 2005, reversing a downward trend in key compliance indicators during the previous 4 fiscal
 years. Specifically, there were increases in the number of returns examined and amount of
 additional tax assessments. There was also an overall decrease in the number of returns that
 were selected for audit but closed without any change to the original return. In addition, the
 Employee Plans function reported an improvement in the quality of examinations from the early
 periods of our review, and Customer Satisfaction ratings were generally consistent and met
 established goals.
                 Trends in Employee Plans Function Enforcement Activities for
                                  Fiscal Years 2000 – 2005




Recommendations
We made no recommendations in this report. However, key Internal Revenue Service
management officials reviewed it prior to issuance and agreed with the facts and conclusions
presented.
Copies of this report are also being sent to the Internal Review Service managers affected by this
report. Please contact me at (202) 622-6510 if you have any questions or Nancy A. Nakamura,
Acting Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                 2
                       Trends in Employee Plans Function Enforcement Activities for
                                        Fiscal Years 2000 – 2005




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Changes in the Way the Employee Plans Function Applied Resources
          and Selected Returns for Examination Have Resulted in Improvements
          to Key Compliance Indicators Since Fiscal Year 2003 ................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 28
          Appendix II – Major Contributors to This Report ........................................Page 30
          Appendix III – Report Distribution List .......................................................Page 31
         Trends in Employee Plans Function Enforcement Activities for
                          Fiscal Years 2000 – 2005




                       Abbreviations

AIMS                Audit Information Management System
EO TEP              Exempt Organizations Total Examination Program
EP                  Employee Plans
EPTA                Employee Plans Team Audit
FTE                 Full-Time Equivalent
FY                  Fiscal Year
I.R.C.              Internal Revenue Code
IRS                 Internal Revenue Service
LMSB                Large and Mid-Size Business
RAP                 Remedial Amendment Period
RICS                Returns Inventory and Classification System
TE/GE               Tax Exempt/Government Entities
TEQMS               Total Examination Quality Measurement System
U.S.C.              United States Code
                 Trends in Employee Plans Function Enforcement Activities for
                                  Fiscal Years 2000 – 2005




                                      Background

The Employee Plans (EP) function is part of the Tax Exempt and Government Entities (TE/GE)
Division that was established in Fiscal Year (FY) 2000. Within the Division, the EP function
Examination operation is responsible for ensuring pension plans and the variety of employee
benefit plans are in compliance with Internal Revenue Code (I.R.C.) sections and regulations.
Plans meeting I.R.C. qualification standards are accorded special tax treatment under the law.
This includes a current tax deduction for employers for contributions to qualified plans; for
employees, the contributions are not currently included in income. If employee plans fail to
meet the qualification requirements, this favorable tax treatment may be denied, meaning the
employer may lose tax deductions and employees may have to report the benefits on their tax
returns.
To meet its responsibility, the EP function
Examination operation promotes voluntary
                                                         One of the goals of the EP function
compliance by:                                           Examination operation is to promote
                                                         voluntary compliance by:
   •   Identifying and correcting noncompliance
       through focused, efficient examinations.          ▪ Identifying and correcting
                                                          noncompliance by conducting
   •   Ensuring consistency and fairness in the           focused, efficient examinations.
       application of the law.
                                                         ▪ Analyzing operational features of
   •   Resolving issues at the lowest possible level      retirement plans.
       (to allow employers to identify and correct
       deficiencies prior to Internal Revenue
       Service (IRS) adjudication).
During FYs 2000 – 2005, the EP function issued annual workplans setting forth specific program
priorities within its Examination operation in support of priorities described in the IRS Strategic
Plan. The EP function aligned its Examination operation emphasis to be consistent with the
overall goals for the IRS.
Annual workplans also included the activities and projects EP function employees would work
on during the year and the types of cases that would be assigned. For example, the FY 2005
annual workplan showed the EP function Examination operation would continue work in key
compliance programs such as abusive tax avoidance transactions and risk analysis of compliance
levels in various market segments.
The EP function Examination operation priorities have evolved during the period included in our
review. For example, with the establishment of the TE/GE Division in FY 2000, the EP function
Examination operation’s FYs 2000 and 2001 workplans included guidance on “research
                                                                                             Page 1
                Trends in Employee Plans Function Enforcement Activities for
                                 Fiscal Years 2000 – 2005



programs,” described as a systematic method of defining the EP function universe by examining
samples from different market segments and using the results to profile those segments. In
FY 2002, the EP function Examination operation started documenting compliance baseline data
from previously completed audits to assess the impact of EP function compliance efforts on three
market segments. In FY 2003, the EP function Examination operation began assigning returns
from four market segments for which previous examinations showed the percentage of returns
having a tax change was relatively high but the number of returns examined from those segments
was relatively low.
This review was performed at the TE/GE Division Headquarters in Washington, D.C., during the
period December 2005 through April 2006. The audit was conducted in accordance with
Government Auditing Standards. However, we relied on information accumulated by the IRS
and maintained on IRS computer systems and did not verify its accuracy. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




                                                                                         Page 2
                    Trends in Employee Plans Function Enforcement Activities for
                                     Fiscal Years 2000 – 2005




                                      Results of Review

Changes in the Way the Employee Plans Function Applied Resources
and Selected Returns for Examination Have Resulted in
Improvements to Key Compliance Indicators Since Fiscal Year 2003
Overall, compliance activities improved as both the number and quality of completed
examinations increased during FYs 2004 and 2005, reversing a downward trend in key
compliance indicators during the previous 4 fiscal years.
For example, while the total number of returns examined in FY 2005 was 31 percent below the
total for FY 2000, there was a 34 percent increase in the number of examinations in comparison
to FY 2003 (see Figure 4). This increase coincides with the end of the Remedial Amendment
Period (RAP) in January 2004, when revenue agent resources were reassigned to address
significant increases in requests for a determination letter1 and inventories of in-process
determination applications.2
There was a corresponding trend in total additional tax assessments. From FYs 2000 – 2003, the
amount of additional tax assessed fell from a high of $103.5 million to a low of $1.7 million.
Over the past 2 fiscal years, there have been steady increases, with a total of $38.7 million of
additional assessments for FY 2005 (see Figure 15).
The average time per examination increased in all but 1 year since FY 2000, with a 29.4 percent
increase overall from FYs 2000 to 2005. Since the EP function Examination operation adopted a
“market-segment” examination approach in FY 2003, time per case increased 13.5 percent,
primarily due to conducting audits of more complex issues and a significant hiring initiative in
FY 2005 that resulted in increased training for the less experienced staff (see Figure 8).
The number of returns for which examinations resulted in no change to tax increased overall
from FYs 2000 – 2004. For example, the “no-change” rate was 59.4 percent in FY 2000, and it
peaked at 73.0 percent in FY 2002. However, since the EP function Examination operation


1
  Many employers desire advance assurance that the terms of their plans satisfy the requirements of the I.R.C. and
will submit an application to the IRS for a determination letter. EP function specialists analyze the applications to
determine if the plans are established in a manner that meets current laws and are substantially compliant with the
I.R.C. and any applicable Revenue Procedures.
2
  The IRS allows plan sponsors a period of time, called the RAP, to incorporate tax law changes without a penalty or
sanction. The end of the RAP becomes the deadline for timely filing a determination application on the changes to
the plan. The most recent RAP was scheduled to end on December 31, 2001, but was extended several times to
January 31, 2004.
                                                                                                             Page 3
                    Trends in Employee Plans Function Enforcement Activities for
                                     Fiscal Years 2000 – 2005



adopted a market-segment approach in FY 2003, the no-change rate dropped to 57.1 percent in
FY 2005, the lowest level since FY 2000 (see Figure 12).
The following sections of this report describe the efforts of the EP function Examination
operation to enforce compliance with I.R.C. provisions related to pension plans. This includes
analyses of EP function enforcement and staffing data for FYs 2000 – 2005 to identify trends in
the following areas:
    •    Resources applied to EP function enforcement. This is measured by the Full-Time
         Equivalents (FTE)3 applied to the EP function Examination operation.
    •    Number of completed examinations.
    •    Time expended on examinations.
    •    Change rate. This is measured by the percentage of returns on which noncompliance is
         found and the plan sponsor is required to correct the pension plan to bring it into
         compliance with the law. Conversely, a no-change rate is the percentage of returns that
         were determined to be in compliance with the law and no change is proposed to the
         return.
    •    Dollars assessed as a result of examination. Because pension plan returns are nontaxable,
         the assessments for noncompliant plans post as a Miscellaneous Penalty on the IRS
         Non-Master File.4 There also may be related assessments for additional income tax on
         individual or business returns or excise tax on employee benefit plans.
    •    Examination quality. This is measured by the results of quarterly quality reviews of
         examinations. The EP function Quality Review Staff completes the reviews.
    •    Customer satisfaction. This is measured by surveying customers after their examinations
         are completed.




3
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2004, 1 FTE was equal to 2,096 staff hours. For FY 2005, 1 FTE was equal to
2,088 staff hours.
4
  The Non-Master File supports processing of transactions not compatible with the IRS Master File processing,
timeliness, or data. The Master File is the IRS database that stores various types of taxpayer account information; it
includes individual, business, and employee plans and exempt organizations data.
                                                                                                              Page 4
                   Trends in Employee Plans Function Enforcement Activities for
                                    Fiscal Years 2000 – 2005



An increase in Determination applications resulted in fewer resources being
applied to EP function Examination operation activities
Data from the TE/GE Division Technical Time Reporting System5 showed the number of FTEs
applied to EP function Examination operation activities increased in FY 2004 following a
significant decline in resources expended in this area from FYs 2000 – 2003. A major factor
driving this trend was a decision to redirect revenue agent resources to the Determination
operation to assist with a large influx of Determination applications resulting from a RAP. EP
function Examination operation management made this decision to give plan sponsors good
customer service on their Determination application requests. This also enabled EP function
management to ensure employers had correctly amended their pension plans upfront instead of
waiting to examine the corrections through the Examination operation. However, because the
RAP was extended several times over a multiyear period, EP function Examination operation
management had a difficult time planning the Examination operation resources and workload for
each upcoming year. Their intent was to shift Examination operation resources to work
Determination applications as they were needed during the year. When assigning work, EP
function Examination operation managers were aware the ability to complete their regular work
could be affected by the need to reassign staff to the Determinations program.
Figures 1 – 3 present the following:
    •   Figure 1: FTEs planned and expended by the EP function on direct Examination
        operation activities.6
    •   Figure 2: Total Determination letters issued.
    •   Figure 3: Total FTEs expended by the EP function on direct Examination operation
        activities and by the EP function overall.




5
  The TE/GE Technical Time Reporting System is used to monitor time planned for and applied by employees in
TE/GE Business Segments.
6
  Direct Examination activity – Time expended to conduct an audit of a return.
                                                                                                       Page 5
                       Trends in Employee Plans Function Enforcement Activities for
                                        Fiscal Years 2000 – 2005



        Figure 1: Total FTEs Planned and Expended by the EP Function on
                  Direct Examination Activities (FYs 2000 – 2004)
                 250

                                                                                                       203
                            200              195
                 200
          FTEs




                                                                  161                164               190

                 150
                                             139                                     134
                            124                                   109
                 100
                          FY 2000           FY 2001           FY 2002              FY 2003           FY 2004

                          Total Planned Direct Examination FTEs         Total Actual Direct Examination FTEs

        Source: EP function Technical Time Report 11 for FYs 2000 – 2004. Actual FTEs for FY 2005
        were not readily available due to issues with implementation of a new management
        information system.

During the early periods shown in Figure 1, there were sizeable differences in total planned and
actual direct Examination operation FTEs. The differences were attributable primarily to the
anticipated need for revenue agent resources to assist with the processing of Determination
applications that did not materialize until FY 2003.
The expected rise in Determination applications started in the spring of FY 2002. As shown in
Figure 2, the number of Determination letters issued in reply to these applications reached its
peak in FY 2003. In addition, the nearly 70,000 Determination applications received by the EP
function in FY 2004 far exceeded the planned volume of 42,000. As a result, the EP function
continued using revenue agent resources to reduce the backlog of Determination applications and
issue Determination letters during FY 2005.




                                                                                                               Page 6
                    Trends in Employee Plans Function Enforcement Activities for
                                     Fiscal Years 2000 – 2005



             Figure 2: Total Determination Letters Issued (FYs 2000 – 2005)
              100,000
                                                                  80,150
               80,000
                                                                               54,565
               60,000
                                                    42,469                                40,376
               40,000                 28,388
                          27,304
               20,000

                    0
                          FY 2000      FY 2001       FY 2002     FY 2003       FY 2004    FY 2005

                                                 Total Determination Letters

              Source: Statistics of Income office Table 20 for FYs 2000 – 2005.

To eliminate the repeated peaks and valleys associated with Determination application receipts
since adoption of the Employee Retirement Income Security Act of 1974,7 the IRS recently
published guidance on restructuring the Determinations program. The proposed changes
included a process for staggering the due dates of Determination applications for future RAPs.
The IRS issued these changes in final form in Revenue Procedure 2005-66, dated
September 12, 2005.8 These changes should help to prevent the RAP peak experienced in
FYs 2002 and 2003.
Figure 3 shows that from FYs 2001 – 2003 there was a decrease of 61 FTEs expended on
EP function direct Examination operations, while the EP function’s overall FTE usage increased
by 123. The downward shift in resources devoted to the Examination program and the increase
in FTEs devoted to the entire EP function were associated primarily with the need for staffing to
address the increase in Determination applications.




7
  Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered sections of 5 U.S.C., 18 U.S.C.,
26 U.S.C., 29 U.S.C., and 42 U.S.C.).
8
  Revenue Procedure 2005-66 contains the IRS’ procedures for issuing Determination letters pursuant to
I.R.C. § 401(a) (2004) with respect to a staggered RAP system for both plans that are and are not preapproved.
                                                                                                            Page 7
                   Trends in Employee Plans Function Enforcement Activities for
                                    Fiscal Years 2000 – 2005



    Figure 3: Total FTEs Expended by the EP Function on Direct Examination
      Operation Activities and by the EP Function Overall (FYs 2000 – 2004)

                   900
                                                            795           810              772
                            680             687

                   600
            FTEs




                   300
                           200             195                                             203
                                                            161           134
                    0
                         FY 2000          FY 2001         FY 2002        FY 2003         FY 2004

                         Total Direct Examination FTEs Expended     Total EP Function FTEs Expended


           Source: EP function Technical Time Report 11 for FYs 2000 – 2004. Actual FTEs for
           FY 2005 were not readily available due to issues with implementation of a new
           management information system. All FTE figures are rounded to the nearest whole number.

The number of completed examinations decreased by 31 percent during
FYs 2000 – 2005
There are a variety of measures for gauging the impact of the EP function Examination operation
on compliance. One primary measure is the number of examinations completed during a fiscal
year. As shown in Figure 4, the total examinations completed significantly decreased during
FYs 2000 – 2003, increased over the next 2 fiscal years, but remained 31 percent below the
FY 2000 level by the end of FY 2005.




                                                                                                      Page 8
                        Trends in Employee Plans Function Enforcement Activities for
                                         Fiscal Years 2000 – 2005



             Figure 4: Total Number of Closed Examinations (FYs 2000 – 2005)

                 16,000

                                11,843
                 12,000

                                          11,100          8,271                               8,230
                                                                                     7,910
                     8,000

                                                                        6,119
                     4,000


                        0
                                FY 2000   FY 2001      FY 2002         FY 2003      FY 2004   FY 2005

                                                    Total EP Function Returns Examined

               Source: Audit Information Management System (AIMS)9 Report 20 (FYs 2000 – 2005).

Figure 5 shows that each year from FY 2000 through 2005, fewer examinations were completed
per FTE assigned to the Direct Examination program.
                  Figure 5: Closed Examinations per Direct Examination FTE
                                      (FYs 2000 – 2004)
                80


                              59.1          57.0
                60
                                                              51.5
                                                                                 45.6
                                                                                              39.0
                40



                20
                             FY 2000      FY 2001            FY 2002             FY 2003      FY 2004

                                            Returns Examined Per Direct Examination FTE

             Source: EP function Technical Time Report 11 and AIMS Report 20 for FYs 2000 – 2004.
             Actual FTE data for FY 2005 were not readily available due to issues with implementation
             of a new management information system.

The number of examinations completed in a fiscal year is affected by many factors, including
complexity of the cases, experience levels of the staff, and the time required to work cases. In
addition, during FYs 2000 – 2005 the EP function Examination operation used a variety of

9
    The AIMS provides an automated inventory and activity control for active examination cases.
                                                                                                        Page 9
                    Trends in Employee Plans Function Enforcement Activities for
                                     Fiscal Years 2000 – 2005



approaches for selecting returns for examination and determining the programs that would take
priority. Changes in approaches could have affected the length of examinations and the number
of examinations completed.
One of the biggest changes occurred in FY 2002, when the EP function Examination operation
began a market-segment Risk Assessment program. This program categorized qualified pension
plans into 20 market segments and 11 different plan types within each segment, for a total of
220 distinct market segments. EP function Examination operation management gathered a
significant amount of information on the risk and reliability of the different segments. The Risk
Assessment program’s assumptions and sample sizes were reevaluated in FY 2004, and the
number of market segments was reduced to 79. In FY 2005, the EP function Examination
operation analyzed 20 market segments and had made plans to assign over 5,000 returns for
examination.
With the above changes came a shift in the areas the EP function Examination operation
emphasized for coverage. Examination results for the EP function Examination operation show
this shift beginning in FY 2002 and becoming more prominent in FYs 2003 – 2005. To more
clearly compare trends in examination coverage, Figures 6 and 7 and their accompanying Tables
(as well as Figures related to time per case, no change rate, and additional assessments) show
activity for FYs 2000 – 2002 separate from the activity for FYs 2003 – 2005. Figures 6 and 7
show data from closed examinations for EP function projects, which accounted for the majority
of closures.
In general, during the period of this review, the total number of closed examination cases and
average closures per FTE were affected by:
     •   Moving staff to other EP function program priorities (such as the processing of
         Determination applications) and an associated loss of efficiency when moving staff
         between different types of work.
     •   Hiring and training new staff.10
     •   Shifting the types of cases assigned to revenue agents.
As shown in Figure 6, the majority of closures during FYs 2000 – 2002 were related to the Local
Classified Issues and Sample Result/Converted Non-Exam categories, with the former category
accounting for nearly one-half of all closures in FY 2002. These types of cases are described
below.




10
  During FY 2005, the EP function Examination operation hired 50 new revenue agents. Because many of these
employees were either new to the IRS or had no prior EP function experience, they needed extensive training and
generally worked easier examination cases.
                                                                                                         Page 10
                          Trends in Employee Plans Function Enforcement Activities for
                                           Fiscal Years 2000 – 2005



       •      Local Classified Issues: Examinations based on using the Returns Inventory and
              Classification System (RICS)11 to identify potential noncompliance when the population
              may be too small to warrant a research sample.
       •      Sample Result: Examinations based on sample-tested RICS condition codes. Any tested
              EP function RICS condition codes may be used to select returns as necessary to meet
              resource needs.
       •      Converted Non-Exam: Examinations based on a decision to convert a case to an
              examination based on nonexamination activities (e.g., either review of a response or a
              lack of response to a compliance check letter sent to a taxpayer).12
                                  Figure 6: Closed Examinations for
                        Major Areas of EP Function Emphasis (FYs 2000 – 2002)

                                       8,000


                                       6,000


                  Closed               4,000
               Examinations

                                       2,000


                                           0
                                                FY 2000                  FY 2001                  FY 2002

           Local Classified Issues                 3,627                   6,090                    3,837
           EP Function Local/Multiarea Sample      1,439                   289                      1,160
           Sample Result/Converted Non-Exam        3,906                   2,611                    236
           Casew ork                               1,486                   830                      648
           New Nationw ide Samples                  0                      124                      1,586


     Source: AIMS Report 20 for FYs 2000 – 2002.




11
   The RICS provides users with access to return and filer information related to the filing and processing of
employee plans, exempt organizations, and government entities forms. It receives data from the Business Master
File (the IRS database that consists of Federal tax-related transactions and accounts for businesses; these include
employment taxes, income taxes on businesses, and excise taxes).
12
   A compliance check is a contact with the customer that involves a review of filed information and tax returns of
the entity to determine whether the entity is adhering to record keeping and information reporting requirements. A
compliance check is not an examination, and the customer may legally choose not to participate in the compliance
check.
                                                                                                            Page 11
                   Trends in Employee Plans Function Enforcement Activities for
                                    Fiscal Years 2000 – 2005



The Figure 6 Table shows the percentage of total examination closures for each of the above
types of examination cases during FYs 2000 – 2002.
                                                 Figure 6 Table
                             Area of Emphasis               FY 2000     FY 2001      FY 2002
                  Local Classified Issues                   30.6%        54.9%        46.4%
                  EP Function Local/Multiarea Sample        12.2%         2.6%        14.0%
                  Sample Result/Converted Non-Exam          33.0%        23.5%        2.9%
                  Casework                                  12.5%         7.5%        7.8%
                                            13
                  New Nationwide Samples                     N/A          1.1%        19.2%
                 Source: AIMS Report 20 for FYs 2000 – 2002. The notation “N/A” denotes
                 Not Applicable.

A prior Treasury Inspector General for Tax Administration report14 on the Examination operation
workplan process showed that, while Local Classified Issues helped the EP function meet certain
performance goals such as total closures, it was not designed to focus on areas representing the
greatest risk of noncompliance. In response, EP function management:
     •   Established the Risk Assessment program to ensure returns selected for examination have
         a high probability of noncompliance.
     •   Continually updated risk assessment data and changed examination focus when
         warranted, based on examination results, to ensure returns selected for examination
         further the EP function’s mission of identifying and correcting noncompliance.
     •   Clarified workplan guidelines for using the number of plan participants when selecting
         returns for examination. EP function management also cited a need to maintain an
         appropriate balance on the types and sizes of plans while considering both the number of
         available revenue agents and their experience.
Figure 7 shows that, during FYs 2003 – 2005, the majority of the EP function Examination
operation workload involved Risk Assessment program cases, which accounted for over
80 percent of all EP function Examination operation closures in FYs 2004 – 2005. Following are
the 3 areas of examination emphasis that accounted for all closures during these 3 fiscal years:
     •   Risk Assessment: An initiative that focuses on identifying compliance risks for various
         industries and plan types, based on data from prior examinations.
     •   Special Emphasis: Cases selected for examination based on areas of program emphasis
         included in EP function annual plans. The specific types of issues included in this


13
  Cases selected using a market-segment compliance approach.
14
  Additional Improvements Will Better Focus the Employee Plans Function’s Examinations Workplan on Areas
That Identify and Correct Noncompliance (Reference Number 2002-10-143, dated August 2002).
                                                                                                   Page 12
                  Trends in Employee Plans Function Enforcement Activities for
                                   Fiscal Years 2000 – 2005



        category vary from year to year. In general, these projects are run and monitored by
        project analysts on the Examination Planning and Program office staff.
   •    Casework: Examinations originating from sources outside of EP function classification
        (e.g., referrals from the Department of Labor, tax practitioners, or IRS Examination
        functions outside of the EP function). In general, since FY 2004 this category has
        included all cases that do not fall into one of three major Examination programs:
        (1) Abusive Tax Avoidance Transactions, (2) Risk Assessment, or (3) Employee Plans
        Team Audit (EPTA) and Exempt Organizations Total Examination Program (EO
        TEP)/Large and Mid-Size Business (LMSB) Support. The Training and General Case
        categories also became part of the Other Casework category in FY 2003.
                  Figure 7: Total Number of Closed Examinations by
                Major Areas of EP Function Emphasis (FYs 2003 – 2005)

                         8,000


                         6,000

          Closed
                         4,000
       Examinations

                         2,000


                            0
                                    FY 2003            FY 2004               FY 2005

             Risk Assessment         3,574               6,372                6,829
             Special Emphasis         850                187                   295
             Casew ork               1,695               1,351                1,106



    Source: AIMS Report 20 for FYs 2003 – 2005.

The Figure 7 Table shows the percentage of total examination closures for each of the above
types of examination cases for FYs 2003 – 2005.




                                                                                         Page 13
                     Trends in Employee Plans Function Enforcement Activities for
                                      Fiscal Years 2000 – 2005



                                                  Figure 7 Table
                              Area of Emphasis                 FY 2003      FY 2004      FY 2005
                     Risk Assessment                           58.4%        80.6%        83.0%
                     Special Emphasis                          13.9%         2.4%         3.6%
                     Casework                                  27.7%        17.1%        13.4%
                    Source: AIMS Report 20 for FYs 2003 – 2005. The totals for some fiscal years may not equal
                    100 percent due to rounding.

The amount of time needed to complete an examination has been increasing
There are two measures for gauging time on examinations:
   •   Average time per case, which represents the average amount of time revenue agents
       devoted to completing examination cases.
   •   Cycle time, which is measured from the date a taxpayer is contacted to the date the
       examination case is closed on the AIMS.
As shown in Figure 8, the average time per case increased nearly 30 percent (from 33.6 hours to
43.5 hours per case) in the 6-year period ending in FY 2005. The most noticeable increases
occurred in FYs 2002 and 2005. Reviews by EP function staff indicated these increases were
generally related to EP function revenue agents:
   •   Working a split inventory of Examination program and Determinations program cases.
   •   Conducting audits of returns with more complex issues.
                         Figure 8: Average Time per Case (FYs 2000 – 2005)
                    50


                                                      39.3                                         43.5
                    40
            Hours




                                                                   38.3         38.5

                             33.6         34.1
                    30



                    20
                           FY 2000      FY 2001      FY 2002      FY 2003      FY 2004      FY 2005

                                                   Average Time Per Case

          Source: AIMS Report 20 for FYs 2000 – 2005.

A task group of EP and Exempt Organizations function managers and revenue agents met in
2003 to review the examination process and make recommendations that would result in
                                                                                                          Page 14
                 Trends in Employee Plans Function Enforcement Activities for
                                  Fiscal Years 2000 – 2005



selecting better cases and reducing both cycle time and customer burden. One recommendation
was to expand the use of “focused” or “limited-scope” examinations. Under this approach,
agents assess internal controls, use more effective interview techniques, and examine several
specific issues. This allows agents to limit audit activity with compliant customers and do more
comprehensive examinations of potentially noncompliant customers.
The EP function Examination operation conducted a pilot to test this concept in March 2004 and
completed the test in March 2005. The 625 cases closed using this approach showed a
23 percent decrease in time per case and a 27 percent reduction in cycle time.
Other factors affecting the timeliness of EP function examinations from FYs 2002 – 2005
included the following:
    •   FY 2002: A shift in emphasis to more complex and time-consuming examinations of
        larger plans (i.e., those with more participants) resulted in an increase in the average time
        per case.
    •   FY 2003: An EP function operational review in May 2003 noted the slight improvement
        in time per case was due to a much larger percentage of Risk Assessment program
        returns, which revenue agents closed in an average of 29 hours per case. These
        accounted for nearly one-half of all closures in FY 2003 versus only 12.5 percent in
        FY 2002. There was also significant improvement in time per case within the Other
        Casework category of examinations, which includes several types of cases such as
        third-party referrals and reported funding deficiencies.
    •   FY 2005: The overall rise in time per case primarily resulted from less experienced staff
        conducting more examinations of market-segment cases.
Figures 9 and 10 show average time per case for key programs, which represent the majority of
total closures for each fiscal year shown (see Tables included with Figures 6 and 7).




                                                                                            Page 15
                     Trends in Employee Plans Function Enforcement Activities for
                                      Fiscal Years 2000 – 2005



     Figure 9: Average Time per Case, Key Program Areas (FYs 2000 – 2002)
                                     80


                                     60


                 Hours               40


                                     20


                                      0
                                                 FY 2000             FY 2001            FY 2002

     Local Classified Issues                      31.2                32.5                  39.5
     EP Function Local/Multiarea Sample           39.3                70.2                  31.0
     Sample Result/Converted Non-Exam             23.9                28.0                  43.4
     Casew ork                                    60.9                55.6                  58.7
     New Nationw ide Samples (see Note)                               29.5                  31.1

   Source: AIMS Report 20 for FYs 2000 – 2002. Note: There were no cases for “New Nationwide Samples” in
   FY 2000.

     Figure 10: Average Time per Case, Key Program Areas (FYs 2003 – 2005)

                      150




                      100

           Hours

                         50




                         0
                                      FY 2003              FY 2004                  FY 2005

         Risk Assessment                  30.2              33.0                     40.0
         Special Emphasis                 55.2              104.5                    71.0
         Casew ork                        50.7              55.8                     60.8

     Source: AIMS Report 20 for FYs 2003 – 2005.

There was wide variation in EP function examination cycle times during the past 6 fiscal years,
as illustrated in Figure 11. This trend is attributable to many of the same issues as those
associated with time per case. In addition, EP function reviews completed during
                                                                                                   Page 16
                                Trends in Employee Plans Function Enforcement Activities for
                                                 Fiscal Years 2000 – 2005



FYs 2002 – 2005 addressed cycle time and cited specific steps EP function management has
taken to improve timeliness:
     •             FYs 2002 – 2003: EP function management expected cycle time to increase due to
                   shifting Examination operation resources to the Determinations program, revenue agents
                   working “split” inventories of Examination program and Determinations program cases,
                   a significant need for higher graded agents to work Determination applications, less
                   experienced agents conducting examinations, and a 16 percent increase in cycle time
                   during FY 2003 for Closing Agreement Program cases.15
     •             FY 2004: Average cycle time decreased 38 calendar days during the fiscal year as EP
                   function Examination operation revenue agents were no longer working split inventories.
                   At the end of FY 2003, the EP function Examination operation permanently reassigned
                   95 employees to dedicated Determinations program groups so revenue agents would no
                   longer have to be reassigned to the Determinations program during the year.
     •             FY 2005: The EP function Examination operation increased the original 190 calendar
                   day cycle time projection to 200 calendar days in August 2005 after analyzing data for
                   the first 9 months of FY 2005. In addition, the EP function Examination operation asked
                   Area Offices16 to target the “top 10” oldest cases (an action cited as one reason for
                   increased cycle time). There was also a 20 percent increase in average time per case for
                   market-segment examinations due to an increase in the number of cases closed with
                   changes.
                                          Figure 11: Cycle Time (FYs 2000 – 2005)
                          230
                                                                  221          224
                          220
          Calendar Days




                                                                                              215
                                                                 210           215                              207
                          210

                          200
                                196              190
                          190
                                                                                                                190
                                                                                               186
                          180
                                FY 2000        FY 2001         FY 2002        FY 2003        FY 2004           FY 2005
                                             Planned Examination Cycle Time    Actual Examination Cycle Time

         Sources: AIMS Report 61 and EP function annual workplans for FYs 2000 – 2005.


15
   Revenue Procedure 2002-47 (July 22, 2002) contains provisions for updating the comprehensive system of
correction programs for sponsors of retirement plans that are intended to satisfy the requirements of I.R.C. §§
401(a), 403(a), 403(b), or 408(k) but that have not met these requirements for a period of time.
16
   The EP function Examination operation has five Area Offices that report to the EP function National Office and
provide guidance to local EP function offices.
                                                                                                                         Page 17
                       Trends in Employee Plans Function Enforcement Activities for
                                        Fiscal Years 2000 – 2005



The change rate significantly improved after several years of an overall decrease
Another indicator of Examination program impact is the percentage of cases resulting in some
type of change due to noncompliance with the I.R.C. Overall, the rate of change fell during the
early period of our review period but in FY 2005 reached its highest level since FY 2000.
Figure 12 shows the percentage of examinations resulting in either a change or no change over
the past 6 fiscal years.
                             Figure 12: Change Rate (FYs 2000 – 2005)
                      80
                                     68.7                                  70.9
                                                              67.0
                            59.4               73.0                                     57.1
                      60
            Percent




                      40
                                                27.0                                    42.8
                            40.6
                                      31.4                    33.0         29.0
                      20


                      0
                           FY 2000   FY 2001    FY 2002     FY 2003       FY 2004     FY 2005
                                               Change         No Change

           Source: AIMS Report 20 for FYs 2000 – 2005. The total rate of change for some fiscal years may not
           equal 100 percent due to rounding.

While the number of completed examinations increased in each of FYs 2003 – 2005, there was
still a significant number of closures for returns deemed to be compliant (i.e., no-change
closures). The EP function workplan for FY 2006 includes two specific actions to better focus
compliance activities so revenue agents can more effectively and efficiently perform audits:
   •   Assign examinations needed to complete the baseline Risk Assessment program.
   •   Expand the focused examination concept to all examinations so agents have a process for
       identifying and targeting key issues based on plan type and industry.
Figures 13 and 14 provide the no-change rate for major Examination programs during
FYs 2000 – 2002 and FYs 2003 – 2005.




                                                                                                    Page 18
                   Trends in Employee Plans Function Enforcement Activities for
                                    Fiscal Years 2000 – 2005



         Figure 13: No Change Rate, Key Program Areas (FYs 2000 – 2002)
                                    100

                                     80

                                     60
             Percent
                                     40

                                     20

                                      0
                                            FY 2000              FY 2001               FY 2002

     Local Classified Issues                  81.2                 78.9                  76.4
     EP Function Local/Multiarea Sample       40.7                 25.3                  87.7
     Sample Result/Converted Non-Exam         69.0                 63.7                  31.4
     Casew ork                                29.6                 34.1                  48.0
     New Nationw ide Samples (see Note)                            87.9                  86.3

   Source: AIMS Report 20 for FYs 2000 – 2002. Note: There were no cases for “New Nationwide Samples”
   in FY 2000.

The above categories accounted for over 75 percent of all closures for FYs 2000 – 2002. While
the no-change rate was relatively constant for the Local Classified Issues and New EP Function
Nationwide Sample categories during this period, there were generally wide fluctuations in other
categories.
Since the EP function adopted its market-segment approach in FY 2003, there has been an
overall decrease in the no-change rate for returns EP function revenue agents examined to
validate the Risk Assessment program process. For example, in the 3-year period ending in
FY 2005, there was a significant drop in the no-change rate for the Risk Assessment category,
from 84.6 percent to 60.7 percent. During the same period, the number of returns examined for
this category increased 91 percent and accounted for over 80 percent of all closed examinations
in FYs 2004 and 2005.




                                                                                                 Page 19
                        Trends in Employee Plans Function Enforcement Activities for
                                         Fiscal Years 2000 – 2005



         Figure 14: No Change Rate, Key Program Areas (FYs 2003 – 2005)

                               100

                               80

                               60
             Percent
                               40

                               20

                                0
                                         FY 2003                  FY 2004                  FY 2005

             Risk Assessment              84.6                      77.8                    60.7
             Special Emphasis             52.4                      25.1                    43.3
             Casew ork                    37.3                      44.7                    43.1


       Source: AIMS Report 20 for FYs 2003 – 2005.

Assessment amounts for noncompliant plans have decreased from the early
periods of our review
Another indicator of the success of the Examination program is the amount assessed for the
noncompliance issues identified during examinations. Figures 15 through 18 show the total
amounts assessed during FYs 2000 – 2005 as well as total assessments for key EP function
Examination programs.
             Figure 15: Total Additional Tax Assessed (FYs 2000 – 2005)

                        $120
                                         $103.5
                                                         $97.6

                        $80
             Millions




                                $70.5
                                                                                              $38.7
                        $40

                                                                        $1.7      $4.5
                         $0
                               FY 2000   FY 2001       FY 2002      FY 2003      FY 2004     FY 2005

                                                 Total Additional Tax Assessed


           Source: AIMS Report 20 for FYs 2000 – 2005.

The EP function’s annual workplans include priorities to support the IRS Strategic Plan goal of
Enhancing Enforcement of the Tax Law. In recent years, there have been numerous news

                                                                                                       Page 20
                    Trends in Employee Plans Function Enforcement Activities for
                                     Fiscal Years 2000 – 2005



articles about the dramatic increase in defunct pension plans taken over by the Pension Benefit
Guaranty Corporation. Over the past few fiscal years, the EP function’s areas of examination
emphasis have shifted to address these concerns and include the following strategies:
   •   Monitoring pension funding.
   •   Detecting and deterring abusive tax schemes.
   •   Refining compliance risk assessments with data from examinations.
Through the end of FY 2005, there were relatively few completed examinations in the area of
abusive tax avoidance transactions. However, on average, these cases resulted in a sizeable
amount of additional tax assessments.
Figures 16 through 18 (and their accompanying Tables) provide a more detailed breakdown of
total tax assessments by the EP function Examination operation, including:
   •   Total dollars assessed for selected programs/projects.
   •   Percentage of total assessments that each of these areas comprise.
These programs were chosen because they represent the majority of total assessments made
during each fiscal year covered in our review (see Figures 16 and 17).
   Figure 16: Examination Assessments, Key Program Areas (FYs 2000 – 2002)


                                 FY 2002




                                 FY 2001




                                 FY 2000



             Millions       -$10           $0        $10   $20           $30   $40      $50       $60

                                           FY 2000           FY 2001                 FY 2002

       Local Classified Issues              -$0.5                $1.9                 $49.4
       Casew ork                            $23.5                $18.6                -$3.9
       Market-Segment                       $0.0                 $0.0                 $50.4
       General Cases                        $21.7                $30.9                $0.6
       Nationw ide Exams                    $12.5                $45.8                $0.0

   Source: AIMS Report 20 for FYs 2000 – 2002. General Cases include examinations that were worked on an
   as-needed basis to balance staff assignments.

                                                                                                  Page 21
                  Trends in Employee Plans Function Enforcement Activities for
                                   Fiscal Years 2000 – 2005



The Figure 16 Table shows the percentage of total additional assessments that the key program
areas accounted for during this period.
                                                 Figure 16 Table

                             Area of Emphasis              FY 2000    FY 2001     FY 2002

                       Market-Segment                       N/A         N/A           51.7%
                       General Cases                       30.8%       29.9%           0.6%
                       Local Classified Issues             -0.7%       1.8%           50.6%
                       Casework                            33.3%       18.0%          -4.0%
                       Nationwide Exams                    17.7%       44.2%            N/A
                      Source: AIMS Report 20 for FYs 2000 – 2002. The notation “N/A”
                      denotes Not Applicable.

   Figure 17: Examination Assessments, Key Program Areas (FYs 2003 – 2005)


                             FY 2005




                             FY 2004




                             FY 2003



                          Millions     $0            $5         $10             $15           $20       $25

                                                 FY 2003              FY 2004                 FY 2005

          EPTA & EO TEP/LMSB Support              $0.0                 $0.0                    $23.8
          Risk Assessment                         $0.6                 $1.5                    $3.4
          Special Emphasis                        $0.2                 $0.2                    $9.6
          Casew ork                               $0.9                 $2.8                    $1.9

      Source: AIMS Report 20 for FYs 2003 – 2005. The category “EPTA & EO TEP/LMSB Support”
      (Employee Plans Team Audit & Exempt Organizations Total Examination Program/Large Mid-Sized
      Business Support) includes assessments associated with examinations of the largest plan sponsors, including
      those employers whose corporate returns are under the jurisdiction of the IRS’ Exempt Organizations and
      Large and Mid-Size Business organizations.

The Figure 17 Table shows the percentage of total additional assessments that the key program
areas accounted for during this period.

                                                                                                         Page 22
                        Trends in Employee Plans Function Enforcement Activities for
                                         Fiscal Years 2000 – 2005



                                                Figure 17 Table

                                   Area of Emphasis         FY 2003    FY 2004    FY 2005

                           EPTA & EO TEP/LMSB Support         N/A        N/A      61.5%
                           Risk Assessment                   35.3%      33.3%     8.8%
                           Special Emphasis                  11.8%      4.4%      24.8%
                           Casework                          52.9%      62.2%     4.9%
                          Source: AIMS Report 20 for FYs 2003 – 2005. The notation “N/A”
                          denotes Not Applicable.

  The overall downward trend in additional tax assessments during FYs 2002 and 2003 correlates
  with a decrease in total direct Examination program staffing and closures. However, over the
  past 2 fiscal years, there has been a significant increase in total assessments.
  It is important to note that assessments alone are not a reliable indicator of the effectiveness of a
  particular Examination program. There are often wide variances in the amount of examination
  assessments for the various pension plans (due to the size and complexity of the plan and the
  degree of noncompliance). For example, one completed case can result in several million dollars
  in additional assessments, but this cannot be expected year after year in the Examination
  program. Therefore, it would not be reasonable to expect this result the following year or to
  devote more resources to this type of plan in anticipation of further increases in additional tax
  assessments.
         Figure 18: Closed Examinations by Projects Having the Highest Average
                      Additional Tax Assessments (FYs 2000 – 2005)
             Project Code/Title               FY 2000     FY 2001    FY 2002 FY 2003 FY 2004            FY 2005
                                                                Average Additional Assessment
 301 Local Classified Issues                      $129        $306     $12,871       $702        N/A          N/A
 445 EP Function Risk Assessment                   N/A         N/A        N/A          $21      $254         $555
 069 Reported Funding Deficiency               $16,918    $118,894    $205,037    ($5,198)   $17,598         $215
 068 Referrals                                 $16,888     $27,155      $5,524       $863     $4,836       $5,245
 000 General Cases                             $47,303    $109,542      $6,366      $1,831    $1,325       $3,191
 078 Coordinated Examination Program
 Support To Large and Mid-Size Business      $17,535     $11,068     $13,369      $1,037      $3,536     $679,741
Source: AIMS Report 20 for FYs 2000 – 2005. The notation “N/A” denotes Not Applicable.

  The Employee Plans function reported improvement in the quality of
  examinations from the early periods of our review
  Overall, the quality of examinations conducted by the EP function Examination operation
  improved and ranged from 84 percent to 86 percent over the past 3 fiscal years. The EP function
  Quality Review Staff issued quarterly reports with comprehensive narratives detailing where
  revenue agents did well and where there was a need for improvement.

                                                                                                       Page 23
                                   Trends in Employee Plans Function Enforcement Activities for
                                                    Fiscal Years 2000 – 2005



The Total Examination Quality Measurement System (TEQMS) is designed to measure the
quality of cases. The TEQMS provides EP function management with data to assess
organizational performance and identify improvement opportunities. For EP function
Examination operation cases, the System is designed to measure the quality of the EP function
Examination operation case process and provide statistical and narrative commentary at the Area
Office and National levels. The System includes eight quality standards, each having specific
elements, aspects, and reasons that measure case quality. The standards provide objective
criteria against which case quality is evaluated.
Starting in FY 2001, the EP function Examination operation established specific goals for
examination quality. The initial goal of an 82 percent accuracy rate has increased over the past
2 fiscal years and was set at 87 percent for FY 2005. During FYs 2000 – 2002, the TEQMS
showed the quality rate ranged from a high of 81 percent to a low of 72 percent. During the
latter part of our review period (FYs 2003 – 2005), quality improved and was consistently near
85 percent.
Figures 19 and 20 show overall TEQMS results for FYs 2000 – 2005 as well as the three
standards having the lowest overall ratings.
                                        Figure 19: Examination Quality (FYs 2000 – 2005)

                                   90
                                                                                86                            87
             Percentage Accurate




                                   85                                                       84
                                                           82                                                 85
                                            81                                               84
                                                                       80      80
                                   80

                                                                       78
                                   75
                                                          72

                                   70
                                          FY 2000      FY 2001      FY 2002   FY 2003     FY 2004      FY 2005


                                                 Examination Quality - Goal    Examination Quality - Actual

           Source: TEQMS Reports (FYs 2000 – 2005).




                                                                                                                   Page 24
                   Trends in Employee Plans Function Enforcement Activities for
                                    Fiscal Years 2000 – 2005



                     Figure 20: Examination Quality (FYs 2000 – 2005)
                                 100


                                  90


                                  80
              Percentage
               Accurate
                                  70


                                  60


                                  50
                                        FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005

               Standard - Examination     83        53        70        88        86        92
               Planning
               Standard -                 58        63        69        77        64        67
               Workpapers/Reports
               Standard - Timeliness      70        67        72        77        77        77


       Source: TEQMS Reports (FYs 2000 – 2005).

Below are definitions for each of these standards:
   •    Examination Planning: Measures whether the pre-audit identified material issues; initial
        requests for information were clear, concise, appropriate, and addressed the potential
        issues selected; and necessary steps were taken to set the groundwork for a complete
        examination.
   •    Workpapers/Reports: Measures documentation of the examination’s audit trail,
        techniques used, procedures applied, and examiner’s activity on the case. This standard
        also measures whether there is sufficient documentation to support the conclusions
        reached and the computations are accurate.
   •    Timeliness: Measures use of time and timeliness of actions throughout the examination
        process.

Customer Satisfaction ratings were generally consistent and met established
goals during the period of our review
Customer Satisfaction ratings for examinations were generally consistent and met the EP
function Examination operation’s goals for FYs 2002 – 2005. Over the past 3 fiscal years, the
EP function workplan for the Examination operation has included a section on Customer
Satisfaction with comments about previous and planned actions the EP function Examination
operation was taking to maintain or improve high ratings for this performance indicator.

                                                                                                    Page 25
                                 Trends in Employee Plans Function Enforcement Activities for
                                                  Fiscal Years 2000 – 2005



For example, the workplan shows each of the Area Offices initiated projects to improve
customer satisfaction, particularly in areas of “time spent on audit” and “explanation of process.”
Customers rated these 2 items as having the highest priority for “improvement opportunities” in
each of the past 3 fiscal years. Actions taken to address these areas include:
   •    Development of a special publication, Understanding the Employee Plans Examination
        Process (Publication 1-EP), which includes an explanation of the audit process to EP
        function customers.
   •    An initial appointment letter to explain why the taxpayer was selected for audit.
   •    A web-based examination guide for use by external customers.
   •    Training classes for revenue agents.
   •    Partnerships with practitioners.
During FYs 2001 – 2005, the overall Customer Satisfaction rating ranged from 5.69 to 5.85 on a
7-point scale (where ratings of 6 or 7 were designated as satisfied customers and ratings of
1, 2, or 3 were designated as dissatisfied customers). Starting in FY 2002, the EP function
Examination operation established a specific goal of achieving an overall 5.70 Customer
Satisfaction rating and in FY 2005 increased this to 5.80. In FY 2003, the EP function
Examination operation added a second goal of having 70 percent of all customer ratings be in the
“satisfied” range (rating of 6 or 7); the EP function increased this to 72 percent in FY 2005.
Figures 21 and 22 show Customer Satisfaction ratings for both of these measures.
       Figure 21: Overall Examination Customer Satisfaction (FYs 2001 – 2005)

                           6.0
            Rating Score




                                                                                      5.85
                                                                                                     5.81
                           5.8
                                                                    5.77                             5.80
                                                    5.77

                                     5.69           5.70            5.70              5.70

                           5.6
                                    FY 2001       FY 2002          FY 2003          FY 2004         FY 2005


                             Customer Satisfaction Rating - Goal           Customer Satisfaction Rating - Actual


          Source: Customer Satisfaction Surveys (FYs 2001 – 2005). These ratings are based on data
          gathered for the 6-month period ending in March of each fiscal year.


                                                                                                                   Page 26
                     Trends in Employee Plans Function Enforcement Activities for
                                      Fiscal Years 2000 – 2005



                       Figure 22: Examination Customer Satisfaction –
                     Percentage of Satisfied Customers (FYs 2002 – 2005)

                75


                                                           72                 72
   Percentage




                            70                70
                70
                                                          70                  70
                                              69



                65
                         FY 2002            FY 2003     FY 2004             FY 2005

                           Satisfied Customers - Goal   Satisfied Customers - Actual


Source: Customer Satisfaction Surveys (FYs 2001 – 2005). These percentages are based on data
gathered for the 6-month period ending in March of each fiscal year.




                                                                                           Page 27
                   Trends in Employee Plans Function Enforcement Activities for
                                    Fiscal Years 2000 – 2005



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to review relevant statistical data concerning the EP
function’s enforcement activities for FYs 2000 – 2005 and analyze the data for trends. To
accomplish this objective, we reviewed Internal Revenue Service data publications and EP
function Examination operation information. We relied on information accumulated by the IRS
and EP function in established reports and did not verify its accuracy. Specifically, we:
I.      Identified areas of emphasis for the EP function’s enforcement activities for
        FYs 2000 – 2005 and determined how resources were allocated.
        A. Obtained EP function workplans and program guidance to identify the major
           strategies, operating priorities, goals, and objectives.
        B. Interviewed EP function management to identify the factors used in determining the
           key program areas (e.g., expected high rate of noncompliance).
II.     Determined the factors EP function management used to gauge the overall success of key
        enforcement areas.
        A. Interviewed EP function management to determine the criteria used in determining
           the success of individual examinations and the overall Examination program.
        B. Determined the data EP function management used to track the measures.
III.    Analyzed data relating to the EP function’s enforcement activities for FYs 2000 – 2005.
        A. Obtained EP function Technical Staffday Analysis reports to identify the total
           planned staff days for the EP function Examination Program.
        B. Obtained Tax Exempt and Government Entities Division Technical Time Reporting
           System1 data to determine the total time applied to EP function examination operation
           activities.




1
 The TE/GE Technical Time Report is used to gather information required by management at all levels for time
application by TE/GE personnel in the Area Offices.




                                                                                                       Page 28
                      Trends in Employee Plans Function Enforcement Activities for
                                       Fiscal Years 2000 – 2005



           C. Obtained Statistics of Income office data to determine the total number of returns
              examined and associated results.
           D. Obtained Audit Information Management System2 data to identify the total number,
              source, type of closure, and time expended on examinations of EP function returns.
           E. Determined the extent of the productive and nonproductive trends for EP
              function-related returns.




2
    The AIMS provides an automated inventory and activity control for active examination cases.




                                                                                                  Page 29
                Trends in Employee Plans Function Enforcement Activities for
                                 Fiscal Years 2000 – 2005



                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Jeffrey M. Jones, Acting Director
James V. Westcott, Audit Manager
Steve T. Myers, Lead Auditor
Michael A. McGovern, Auditor




                                                                                    Page 30
               Trends in Employee Plans Function Enforcement Activities for
                                Fiscal Years 2000 – 2005



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Employee Plans Examination Office, Tax Exempt and Government Entities Division
SE:T:EP:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 31
